    Department of the Interior
      Office of Inspector General




 Audit of Oversight Performed by the
   Minerals Management Service
       of Non-Federal Auditors




No. 2003-I-0061            August 2003
                                                                     C-IN-MMS-0118-2002




                                                                      August 22, 2003


Memorandum

To:            Assistant Secretary for Land and Minerals Management

From:          Anne L. Richards
               Regional Audit Manager

Subject:       Final Report, Audit of Oversight Performed by the Minerals Management
               Service of Non-Federal Auditors (Report No. 2003-I-0061)

        The attached report presents the results of our review of the Minerals
Management Service’s (MMS) oversight of non-federal auditors. Our objective was to
determine whether MMS’ oversight of royalty audits conducted by non-federal auditors
is effective to ensure compliance with the Government Auditing Standards (Standards).
We concluded that MMS’ oversight was reasonably effective to ensure states and tribes
complied with the Standards.

        We did, however, find weaknesses that MMS needs to correct. We noted that (1)
some cooperative agreements contained outdated provisions, (2) audits of Jicarilla tribal
leases were not covered by internal quality control reviews, and (3) neither the MMS’
internal quality control reviews nor the state peer review processes had a formal follow-
up process.

        In the May 12, 2003 response to the draft report, the Assistant Secretary and the
MMS Director agreed with the findings and recommendations in the report. However,
the response did not provide sufficient information for us to consider all the
recommendations resolved and implemented. Accordingly, we are requesting that MMS
provide us with the information indicated in Appendix 4. We would appreciate your
written response to this report by October 1, 2003.

       The legislation, as amended, creating the Office of Inspector General requires that
we report to Congress semiannually on all audit reports issued, actions taken to
implement our audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be added to the next semiannual report.

       We appreciate the cooperation provided by the MMS staff during our audit. If
you have any questions regarding this report, please call me at (303) 236-9243.

Attachment
                                          CONTENTS

                                                                                            Page

Background................................................................................. 1

Objective..................................................................................... 2

Scope and Methodology ............................................................. 3

Results of Audit .......................................................................... 5
     1. Cooperative Agreement Provisions Were
        Outdated ........................................................................ 7
     2. Audits of Jicarilla Leases Are Not Reviewed................ 8
     3. Followup Process Is Not Formalized ............................ 9
     4. Suggestions for Improvement ....................................... 10

Other Matters.............................................................................. 11

Appendices
    1. Cooperative Audit Agreements With State
       and Indian Tribal Governments..................................... 12
    2. MMS Response and OIG Reply.................................... 13
    3. MMS Response to Draft Audit Report.......................... 14
    4. Status of Recommendations .......................................... 20




                                                                                             ii
                      BACKGROUND




•   Companies pay a percentage (called a “royalty”) of the value
    of minerals produced from Federal and Indian lands. The
    Federal and state governments share the royalties from
    Federal leases while the Indian tribes and individual Indians
    retain all royalties from leases on their land.

•   MMS conducts audits of and contracts with state and tribal
    audit organizations to conduct audits of companies to verify
    that royalties have been correctly paid. MMS has executed
    cooperative agreements with 10 state and 8 tribal audit
    organizations (Appendix 1) to perform royalty audits of
    Federal and Indian leases located within their state or tribal
    boundaries.

•   MMS has oversight responsibility to ensure that states and
    tribes perform quality audits and satisfy the terms of the
    cooperative agreements.




                                                                     1
                   OBJECTIVE




• Determine whether MMS’ oversight of royalty audits
  conducted by non-federal auditors is effective to ensure
  compliance with the Government Auditing Standards.




                                                             2
                 SCOPE AND METHODOLOGY




•   Our audit addressed MMS’ oversight of royalty audits
    performed by state and tribal auditors under authority of the
    Federal Oil and Gas Royalty Management Act of 1982,
    sections 202 and 205 as amended, for audits conducted in
    1999 through 2002.

•   MMS did not accumulate data on the total number of audits
    conducted by the states and tribes during this period, so we
    could not determine the total universe of audits under review.

•   To accomplish our objectives, we:

    − Gained an understanding of MMS’ oversight process.

    − Obtained an understanding of the peer reviews conducted
      by the states and tribes of each other. A peer review is a
      review by an independent, external auditor to determine
      whether an audit organization has complied with required
      audit standards.
    −   Obtained an understanding of the internal quality control
        systems of states and tribes and the quality control reviews
        conducted by MMS of the states and tribes.




                                                                    3
             SCOPE AND METHODOLOGY
                  (Continued)




  − Interviewed MMS officials and contacted three state and
    two tribal audit organizations to learn how their peer
    reviews, internal quality control systems, and quality
    control reviews are designed and function.
  − Reviewed relevant documentation regarding planning and
    performance of peer reviews and quality control reviews.
    However, we did not review working papers from
    individual audits because we were evaluating MMS’
    overall process and not conducting a quality review of
    audit work conducted by the states and tribes.
• We conducted our work from July through September 2002
  in accordance with the Government Auditing Standards.




                                                               4
                               RESULTS OF AUDIT



    • MMS’ oversight was reasonably effective to ensure that
      states and tribes complied with the Government Auditing
      Standards. Specifically, MMS:
        − Determined that states and tribes on a regular and effective
          basis complied with audit contracts and monitored states’
          and tribes’ audit performance, including reviews of annual
          work plans and budgets.
        − Consistently conducted internal reviews of states and
          tribes.
        − Performed reasonably complete internal reviews of states
          and tribes.
    •   MMS is correcting some of the internal quality control
        system weaknesses, in response to our recent audit of its
        audit offices, that affect its oversight of states and tribes.
        − The quality review checklist is being revised to include
          assessments of:
             •     Due professional care1
             •     Audit planning and reporting
             •     Supervisory review
1
 According to the Government Auditing Standards (3.28), exercising due professional care “means using
sound judgment in establishing the scope, selecting the methodology, and choosing tests and procedures
for the audit.”



                                                                                                         5
                RESULTS OF AUDIT
                   (Continued)


  − A formal follow-up process is being established to verify
    that identified weaknesses receive appropriate and timely
    corrective action.
• MMS needs to correct the following weaknesses.
  − Outdated provisions in some cooperative agreements.
  − Lack of internal quality control reviews in audits of
    Jicarilla tribal leases.
  − Lack of a formal follow-up process for the MMS’ internal
    quality control reviews and for the state peer reviews.
• MMS should consider the other opportunities for
  improvement identified by our audit.




                                                                6
             1. COOPERATIVE AGREEMENT
             PROVISIONS WERE OUTDATED




• The agreements with states and tribes were not always
  updated for current auditing standards and policies.
  − Four out of eight agreements were not modified to include
    compliance with a Departmental directive to permanently
    retain Indian trust data.
  − Two agreements referenced outdated versions of the
    Government Auditing Standards.
Recommendation
MMS should ensure that the agreements reflect current auditing
standards and policies.




                                                             7
                2. AUDITS OF JICARILLA
               LEASES ARE NOT REVIEWED




• The MMS audit team assigned to the Jicarilla cooperative
  agreement did not undergo regular internal quality control
  reviews.
  − Unlike the other agreements, which require the state or
    tribe to conduct the audits, the Jicarilla cooperative
    agreement stipulates that a tribal official will only monitor
    and assist an MMS audit team.
  − MMS has not included audits of Jicarilla leases in its
    routine schedule of internal reviews that it conducts of its
    own auditors.
  − Government Auditing Standards (Section 3.31 to 3.32)
    require an appropriate internal quality control system to be
    in place. The system should be designed to ensure that all
    MMS audit teams follow adequate audit policies and
    procedures (President’s Council on Integrity and
    Efficiency Guide, Appendix I, Internal Quality Control
    System).
  Recommendation
  MMS should include audit work conducted by its Jicarilla
  audit team in its internal quality control process.




                                                                   8
                 3. FOLLOW-UP PROCESS IS
                      NOT FORMALIZED




• States and tribes properly scheduled and performed peer
  reviews, but there was no formal follow-up process
  established.
• Similarly, MMS’ internal reviews of states and tribes did not
  have a formal and timely follow-up process to ensure that
  identified weaknesses were corrected.
  − MMS stated that it has initiated an interim follow-up
    process. However, the new process has not been
    documented and does not provide for the reviewed state or
    tribal audit group to prepare a written action plan to
    address reported deficiencies.
  Recommendations
        MMS should ensure that the reviewed office, in
        response to each peer review and internal review
        containing findings, prepare a formal action plan
        (written, with reasonable deadlines and responsible
        officials identified).
        MMS should schedule internal reviews to evaluate
        implementation of the action plans, when appropriate.




                                                                  9
                     SUGGESTIONS FOR
                       IMPROVEMENT




• Based on our observations during the audit, we also believe
  that MMS can strengthen its oversight of states and tribes by:
  − Using MMS auditors to assist the smaller state/tribal audit
    organizations in performing independent referencing
    (verification of facts and conclusions in each audit report
    to supporting work papers) of report products.
  − Ensuring that state/tribal auditors are properly qualified
    and independent. Each state/tribal audit group should
    annually certify that all auditors are current with their
    continuing education and are independent of their
    auditees.
  −   Requiring that state and tribal audit reports clearly identify
      that the state or tribe is responsible for the audit work.
  − Requiring that peer reviews cover all relevant steps
    contained in guidelines published by the President’s
    Council on Integrity and Efficiency (PCIE).
  − Adopting the PCIE recommendation of providing no
    advance notice of audit files selected for review.




                                                                  10
                      OTHER MATTERS




• During the course of our audit, several state and tribal
  organizations expressed concern over the overlap between
  MMS’ oversight, as conducted through its internal review
  process of state and tribal audit groups, and the states’ and
  tribes’ own internal quality control systems and the external
  peer reviews to which all audit groups are subjected.
  We concluded that since these separate processes are all
  required by Government Auditing Standards one cannot be
  substituted for another. As a result there is some overlap
  among the processes that cannot be avoided.




                                                                  11
                                        Appendix 1




COOPERATIVE AUDIT AGREEMENTS WITH
STATE AND INDIAN TRIBAL GOVERNMENTS

State Governments   Tribal Governments

 California          Blackfeet Nation

 Colorado            Crow Indian Tribe

 Louisiana           Jicarilla Apache Indian
                     Tribe

 Montana             Navajo Nation

 New Mexico          Shoshone & Arapaho
                     Tribes

 North Dakota        Southern Ute Indian Tribe

 Oklahoma            Ute Indian Tribe

 Texas               Ute Mountain Ute Indian
                     Tribe

 Utah

 Wyoming




                                               12
                                                                   Appendix 2




              MMS RESPONSE AND OIG REPLY

       In the May 12, 2003 response (Appendix 3) to the draft report, the
Assistant Secretary for Land and Minerals Management, and the
Director, MMS, agreed with three of the four recommendations and with
all five of the suggested improvements.

      Regarding recommendation 1 to ensure that agreements with states
and tribes are updated timely, MMS stated that all 18 audit agreements
were modified to require that auditors comply with the 1994 version of
the Government Auditing Standards as amended in 1999. This satisfied
the recommendation, and we consider the recommendation resolved and
implemented. However, the General Accounting Office issued revised
Government Auditing Standards in June 2003 , and we suggest that
MMS update the audit agreements to reflect the new Standards.

      Regarding recommendation 2 to include audit work conducted by
MMS’ Jicarilla audit team in its internal quality control process, MMS
did not provide its concurrence or non-concurrence. MMS stated that
the audit team for Jicarilla tribal leases has been covered by the internal
quality control review process. We found, however, that the Jicarilla
team was not, in fact, subjected to regular internal reviews. Although
the MMS response indicates concurrence with our recommendation, we
request that MMS reaffirm that the Jicarilla team will be included in
future internal reviews.




                                                                          13
Appendix 3




             14
15
16
17
18
19
                                             Appendix 4



          STATUS OF RECOMMENDATIONS


    Finding/
Recommendation
   Reference         Status         Action Requested

      1          Resolved and   No further action is needed.
                 implemented.

      2          Unresolved;    Please state concurrence or
                 additional     non-concurrence with the
                 information    recommendation. If
                 requested.     concurrence is indicated,
                                confirm that the Jicarilla
                                tribal audit team will be
                                included in future internal
                                quality control reviews. If
                                non-concurrence is
                                indicated, provide reasons
                                for the non-concurrence.

   3a and 3b     Resolved and   No further action is needed.
                 implemented.




                                                          20
                           How to Report
               Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone — Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:         U.S. Department of the Interior
                           Office of Inspector General
                           Mail Stop 5341-MIB
                           1849 C Street, NW
                           Washington, DC 20240
             Phone:        24-Hour Toll Free                 800-424-5081
                           Washington Metro Area             202-208-5300
                           Hearing Impaired (TTY)            202-208-2420
                           Fax                               202-208-6081
                           Caribbean Region                  340-774-8300

             Internet:     www.oig.doi.gov/hotline_form.html




                       U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                            Washington, DC 20240
                                    www.doi.gov
                                   www.oig.doi.gov
